No. 19-386

 

In the
Supreme Court of the United States

MONROE COUNTY COMMISSION,
Petitioner,

v.

A.A. NETTLES, SR. PROPERTIES LIMITED AND
EULA LAMBERT BOYLES,

Respondents.

BRIEF AMICI CURIAE ON PETITION FOR
WRIT OF CERTIORARI
TO THE SUPREME COURT OF ALABAMA

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of
this Court and that, pursuant to Supreme Court Rule 33.1(h), the Brief Amici
Curiae of Rails to Trails Conservancy, et al. in Support of Petitioner in case No.

19-386 contains 5,202 words, excluding parts of the document that are exempt by
Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and
correct.

Executed on the 12th day of November 2019.

Sarah M. Stokes

 
